<html>
<title> - TO REVIEW THE UNITED STATES DEPARTMENT OF AGRICULTURE NATIONAL RESPONSE PLAN TO DETECT AND CONTROL THE POTENTIAL SPREAD OF AVIAN INFLUENZA INTO THE UNITED STATES</title>
<body><pre>[Senate Hearing 109-798]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-798

TO REVIEW THE UNITED STATES DEPARTMENT OF AGRICULTURE NATIONAL RESPONSE 
PLAN TO DETECT AND CONTROL THE POTENTIAL SPREAD OF AVIAN INFLUENZA INTO 
                           THE UNITED STATES

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION


                               __________

                              MAY 11, 2006

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov



                               ----------


                    U.S. GOVERNMENT PRINTING OFFICE

30-240 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001














           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                   SAXBY CHAMBLISS, Georgia, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
JAMES M. TALENT, Missouri            BLANCHE L. LINCOLN, Arkansas
CRAIG THOMAS, Wyoming                DEBBIE A. STABENOW, Michigan
RICK SANTORUM, Pennsylvania          E. BENJAMIN NELSON, Nebraska
NORM COLEMAN, Minnesota              MARK DAYTON, Minnesota
MICHEAL D. CRAPO, Idaho              KEN SALAZAR, Colorado
CHARLES E. GRASSLEY, Iowa

            Martha Scott Poindexter, Majority Staff Director
                David L. Johnson, Majority Chief Counsel
              Vernie Hubert, Majority Deputy Chief Counsel
                      Robert E. Sturm, Chief Clerk
                Mark Halverson, Minority Staff Director

                                  (ii)

















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

To Review the United States Department of Agriculture National 
  Response Plan to Detect and Control the Potential Spread of 
  Avian Influenza Into the United States.........................     1

                              ----------                              

                         Thursday, May 11, 2006
                    STATEMENTS PRESENTED BY SENATORS

Chambliss, Hon. Saxby, a U.S. Senator from Georgia, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............     1
Harkin, Hon. Tom, a U.S. Senator from Iowa, Ranking Member, 
  Committee on Agriculture, Nutrition, and Forestry..............    10

                               WITNESSES

DeHaven, Ron, Administrator, Animal and Plant Health Inspection 
  Service, United States Department of Agriculture, Washington, 
  DC.............................................................     3
                              ----------                              

                                APPENDIX

Prepared Statements:
    Harkin, Hon. Tom.............................................    22
    DeHaven, Ron.................................................    24
Document(s) Submitted for the Record:
    Grassley, Hon. Charles.......................................    38
    Roberts, Hon. Pat............................................    41
    Statements from listed organizations representing consumers, 
      family farmers, and advocates for animal welfare...........    42



























 
TO REVIEW THE UNITED STATES DEPARTMENT OF AGRICULTURE NATIONAL RESPONSE 
PLAN TO DETECT AND CONTROL THE POTENTIAL SPREAD OF AVIAN INFLUENZA INTO 
                           THE UNITED STATES

                              ----------                              


                         THURSDAY, MAY 11, 2006

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:32 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Saxby 
Chambliss, Chairman of the committee, presiding.
    Present or Submitting a Statement: Senators Chambliss, 
Thomas, Harkin, and Dayton.

  STATEMENT OF HON. SAXBY CHAMBLISS, A U.S. SENATOR FROM THE 
     STATE OF GEORGIA, CHAIRMAN, COMMITTEE ON AGRICULTURE, 
                    NUTRITION, AND FORESTRY

    The Chairman. Good morning. I welcome you all to this 
hearing to review the U.S. Department of Agriculture's National 
Response Plan to detect and control the potential spread of 
avian influenza in the United States.
    We are fortunate to have the administrator of the Animal 
and Plant Health Inspection Service, or APHIS, of USDA here 
with us today to provide our committee with valuable 
information on this topic of concern to all Americans.
    I thank you, Dr. DeHaven, for your participation in this 
hearing, and welcome to those who are listening via our Web 
site.
    In November of last year, this committee held a hearing on 
the role of U.S. agriculture, including Federal, State, and 
local governments and private industry, in the fight against 
avian influenza. Today's hearing will focus solely on the role 
of the USDA in this coordinated effort.
    In April of this year, USDA's APHIS released its draft 
National Avian Influenza Response Plan. The draft plan details 
how our Government will rapidly detect and quickly respond to 
highly pathogenic avian influenza if and when it reaches 
America's shores.
    The plan, according to USDA, is intended to complement 
regional, State, and industry plans. I look forward to hearing 
how this plan will be utilized in conjunction with the 
President's National Strategy for Pandemic Influenza and 
regional and State plans to control and eradicate avian 
influenza.
    Many experts agree that the form of avian influenza that 
has rapidly spread across Southeast Asia, Africa, and parts of 
Europe and the Middle East is likely to reach the United States 
either through migratory birds or through birds smuggled 
illegally into our country from affected regions.
    While the arrival of the H5N1 virus in America is not a 
certainty, it is in the best interest of all Americans that we 
operate under the assumption that it will arrive. This will 
ensure that through advance planning, we will be prepared. I 
hope to hear more details today on how USDA is preparing to 
address avian influenza should it be found in the United 
States.
    Avian influenza has caused a great deal of concern among 
American families. But let us be clear to all of those 
listening. If the H5N1 form of avian influenza should appear in 
America tomorrow, it would not signal the onset of a human 
pandemic. The disease is, first and foremost, an animal 
disease.
    The current outbreak we see on news broadcasts and in 
dramatic made-for-television movies is almost exclusively a 
disease of birds. A limited number of human beings who have 
been in direct contact with sick birds have become infected, 
and some, unfortunately, have died.
    But to date, the virus has not shown the ability to 
efficiently pass directly from human to human. And it is not 
clear if it ever will do so. However, the threat does exist 
that the virus might mutate to allow for a human pandemic, and 
thus, we must be ever-vigilant and take appropriate 
precautions.
    The key to limiting the potential for a human pandemic is 
to focus our efforts on the current virus in birds. On the 
front lines of those efforts is the United States Department of 
Agriculture. USDA has a long history of addressing avian 
influenza in our domestic and wild bird populations.
    While we have not experienced an outbreak of the H5N1 
strain of the virus that has captured the fascination of the 
media, USDA has long been charged with protecting our U.S. 
poultry industry from avian influenza. And to date, they have 
done a commendable job. However, we cannot become complacent.
    The USDA National Response Plan is based on the invaluable 
experience of Government officials who have addressed avian 
influenza and other foreign animal disease threats in the past. 
Even so, I am encouraged that USDA considers this a living 
document and has sought the input from other stakeholders.
    I hope that USDA will strongly consider and evaluate the 
input provided and continue an open dialog with State and local 
governments, as well as with industry. A transparent and 
communicative approach will be a key asset in our fight to 
control this disease.
    Many of you listening here today likely watched a 
fictional, made-for-television movie on ABC-TV Tuesday night 
that dramatized a theoretical outbreak of the H5N1 bird flu 
virus. In the movie, the virus quickly mutated into a form 
easily spread between humans, resulting in a worldwide 
pandemic.
    This work of fiction has undoubtedly alerted the American 
public to the potential threat of an influenza pandemic, and 
perhaps that is a good thing. However, I am concerned that 
sensationalist movies and inaccurate media portrayals may do 
more to alarm Americans than to increase their awareness. I am 
particularly concerned with how Americans might view the U.S. 
poultry industry with all of this increased attention.
    With all we know at this moment, even if the H5N1 were 
present in the United States, properly cooked poultry would 
remain completely safe for American consumers. I look forward 
to further clarifying that point and some of the movie's other 
misleading assertions with Dr. DeHaven today.
    We must all be mindful that viruses and pandemics do not 
operate on the timetable of man. Though our interest in the 
H5N1 strain of avian influenza may be heightened at this time, 
our interest alone does not make the next pandemic any more 
certain or likely.
    In our world, we are constantly bombarded by naturally 
occurring biological threats. Pandemics have occurred 
throughout the course of human history, and we undoubtedly will 
be faced with this and other threats in the future. But it is 
only arrogance that will lead us to state with certainty that 
the H5N1 strain will cause the next pandemic.
    Rather than act in a reactionary and irresponsible fashion, 
the U.S. must make broad preparations for the next pandemic, in 
whatever form it might take, with purpose, guile, and 
compassion. Our preparations in the fight against avian 
influenza, if done correctly, will serve the American people 
well in this and other challenges to come.
    And again, Dr. DeHaven, we thank you for being here today, 
and we are going to look forward to your testimony.
    Before we go to you, Senator Thomas, if you have any 
opening comments to make, we will look forward to that.
    Senator Thomas. Thank you, Mr. Chairman.
    I really don't have an opening comment. I am interested in 
finding out more information about it, and therefore, I 
appreciate your having this.
    And Doctor, I am glad you are here. I am kind of interested 
in the $7 billion we are talking about spending. I know all of 
it is not in the Department of Agriculture, but nevertheless. 
So thank you very much, and I am looking forward to the 
testimony.
    The Chairman. Thank you.
    At this time, I will turn to Dr. Ron DeHaven, the 
administrator of Animal and Plant Health Inspection Service, 
U.S. Department of Agriculture, here in Washington, D.C.
    Dr. DeHaven, you have been with us several times before. 
Welcome back to the committee. We look forward to your 
testimony on this extremely interesting subject this morning.

   STATEMENT OF RON DEHAVEN, ADMINISTRATOR, ANIMAL AND PLANT 
   HEALTH INSPECTION SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Dr. DeHaven. Chairman Chambliss, thank you for the 
opportunity to testify before the committee about our 
preparations for a potential introduction of highly pathogenic 
H5N1 avian influenza virus into U.S. poultry.
    We appreciate your continued support for our efforts, and I 
would like to begin this morning by briefly touching on a few 
key funding and program initiatives that have unfolded since 
November 2005, when I last testified before this committee.
    Last week, President Bush announced his Implementation Plan 
for the National Strategy for Pandemic Influenza. The 
implementation plan takes the major components of the 
President's National Strategy for Pandemic Influenza and breaks 
them down into more than 300 critical actions.
    As the lead agency in terms of dealing with the disease in 
poultry, the implementation plan directs the U.S. Department of 
Agriculture to play either a leadership or coordinating role in 
98 of those 300 critical actions.
    These include initiatives such as continuing our support of 
efforts overseas to slow the spread of the disease in poultry, 
expanding our domestic surveillance and early warning systems, 
and ensuring that we have a strong plan in place to respond to 
a detection of highly pathogenic H5N1 in poultry here in our 
country.
    USDA will continue to use a four-pronged approach to 
complete these and other critical actions. First, we are 
focused on slowing the spread of the disease overseas by 
assisting other nations.
    Second, we are conducting a proactive messaging campaign 
designed to educate the American public and poultry owners on 
this animal disease. We want to inform, while not alarming.
    Third, we are conducting an aggressive surveillance program 
that focuses on four key areas--wild bird surveillance, 
commercial poultry operations, live bird markets, and backyard 
flocks.
    And finally, we are prepared, when necessary, to execute 
our response plans. As the committee knows, we have a long and 
successful history of dealing with foreign animal diseases and, 
in particular, handling avian influenza in conjunction with our 
State and industry partners.
    Last December, Congress approved and the President signed 
into law a supplemental funding bill for pandemic influenza 
preparedness that included $91.35 million for the U.S. 
Department of Agriculture. Since that time, we have been 
working to ensure that our plans for using these funds are 
strategically sound and fully coordinated with our many 
international, Federal, State, local, and industry cooperators.
    We are using approximately $20 million to help affected 
countries overseas in collaboration with international 
organizations. We are participating in a coordinated effort by 
various interested U.S. Government agencies led by the 
Department of State to work with affected countries through the 
United Nations Food and Agriculture Organization and the World 
Health Organization, as well as the World Organization for 
Animal Health, or the OIE.
    On the domestic front, we are utilizing approximately $72 
million of the supplemental appropriation to enhance anti-
smuggling programs, continue research into the avian influenza 
virus, strengthen wild bird and other domestic surveillance 
efforts, increase the current animal vaccine stockpile, and 
improve a variety of other preparedness activities.
    Another area where we have taken steps to obtain better 
information is migratory bird surveillance. Wild birds are 
considered to be the natural reservoirs for many common, 
relatively harmless strains of avian influenza. We know that 
migratory birds have been implicated in the spread of this 
highly pathogenic H5N1 virus as well.
    On March 20th of 2006, the Department of Agriculture, the 
Department of Interior, and the Department of Health and Human 
Services released an interagency strategic plan that expands 
the monitoring of migratory birds in the United States for this 
highly pathogenic H5N1 virus and establishes common protocols 
for testing birds and tracking the data.
    The plan targets bird species in North America that have 
been the highest risk of being exposed to or infected with 
highly pathogenic H5N1 because of their migratory movement 
patterns.
    APHIS officials have begun sampling efforts in Alaska, and 
our National Wildlife Research Center has also begun processing 
environmental, water, and fecal samples from areas in Alaska 
that harbor high-risk migratory birds. Other States will begin 
surveillance and the collection of environmental samples in 
June based upon migratory sampling.
    Now I would like to update you on our plans for responding 
to a detection of any highly pathogenic AI virus in commercial 
poultry. Recently, APHIS posted to its Web site a draft summary 
of the National Avian Influenza Response Plan. This plan would 
guide the steps taken by USDA and our State and industry 
partners following the detection of highly pathogenic H5N1 
avian influenza in domestic poultry.
    USDA has placed a robust emergency response program 
designed to complement all of our surveillance efforts. When we 
have unexpected poultry or other livestock disease illnesses or 
deaths on the farm, we immediately conduct a foreign animal 
disease investigation. We have a cadre of 450 specially trained 
veterinarians who can be on the site within 4 hours to conduct 
an initial examination and submit initial samples for tests, 
for laboratory testing.
    In conjunction with our State colleagues, APHIS maintains 
State-level emergency response teams on the standby. These 
teams will typically be onsite within 24 hours of a presumptive 
diagnosis of avian influenza or any other significant animal 
disease.
    Destruction of the affected flocks would be our primary 
course of action for highly pathogenic H5N1. We would also work 
with State or tribes to possibly impose State-level quarantines 
and movement restrictions.
    For highly pathogenic avian influenza, as well as for low 
pathogenic H5 and H7 subtypes of the virus, the response plan 
provides guidelines as to how APHIS would work with States to 
quarantine affected premises and clean and disinfect those 
premises after the birds have been properly depopulated and 
disposed. Surveillance testing would also be conducted in the 
quarantine zone and surrounding area to ensure the virus had 
been completely eradicated.
    APHIS maintains a bank of avian influenza vaccines for 
animals in the event that the vaccine would be a potential 
course of action in any outbreak situation. I do want to 
stress, however, that wide-scale vaccination of poultry is not 
our primary strategy against avian influenza. Rather, poultry 
vaccination could be used in response to a widespread detection 
of the disease to create barriers against further spread and to 
assist with our overall control and eradication efforts.
    The response plan's focus, first and foremost, is on 
quickly containing and eradicating the virus before it has a 
chance to spread further in our poultry population. Our ability 
to respond swiftly is linked directly to the strong cooperation 
efforts APHIS is engaged in with our State and industry 
partners.
    The U.S. Poultry and Egg Association convened an industry-
wide meeting in Atlanta, Georgia, on April 27th to facilitate 
dialog with our State counterparts, USDA officials on many 
operational policy and communications issues relative to our 
cooperative AI response and preparedness efforts.
    Many APHIS senior animal health staff and I personally 
attended this meeting, which we felt was extremely beneficial. 
There was a lot of discussion regarding how the response plan 
draws on our ongoing partnerships with other Federal agencies, 
State agriculture departments, State veterinarians, the poultry 
industry, and the conservation and wildlife communities.
    The plan is designed to be flexible and does not supersede 
any State response plans. Rather, it complements such plans 
already in existence or already under development. It 
incorporates much positive feedback. And by releasing a summary 
and posting it online, we fully expect further review and 
comment by our stakeholders.
    In this way, we intend for the response plan to be an 
evolving, dynamic document that takes into account the latest 
scientific information and approaches to emergency preparedness 
and response.
    Allow me to close by offering a couple of thoughts that you 
have heard me say before and I believe are worth repeating. 
First, just like people, there are many, many strains of 
influenza that affect birds with varying degrees of impact and 
importance.
    Second, a detection in birds in the United States of highly 
pathogenic H5N1 does not signal the start of a human pandemic. 
The virus is not easily transmitted from person to person. 
Human illnesses overseas have resulted from direct contact with 
sick or dead birds.
    Third, a detection in wild birds does not mean that the 
virus will reach a commercial poultry operation. We are 
certainly preparing as if it will, but the U.S. poultry 
industry employs a very sophisticated system of firewalls to 
protect the safety of their animals and the product that they 
produce. In addition, the wild migratory bird surveillance plan 
is serving as an early warning system for commercial 
operations.
    Fourth, even if the virus reaches a commercial operation, 
there is no reason for consumers to be concerned about the 
safety of poultry that they purchase and consume. I believe 
that our state of readiness for such an event is high. Our 
response plans would guide a swift, comprehensive response 
designed to minimize further spread of the disease.
    And finally, when it comes to food safety, consumers have 
the power to protect themselves. Quite simply, proper handling 
and cooking of poultry kills the virus and other food-borne 
pathogens. Properly prepared poultry is safe to eat.
    Mr. Chairman, thank you again for the opportunity to 
testify before the committee, and I look forward to answering 
the questions.
    The Chairman. Thank you very much, Dr. DeHaven.
    I understand that we have a special group here today. There 
are 25 of Indiana's brightest and most beautiful ladies with 
us. And we certainly welcome you here. I understand you are 
with the Lugar Institute.
    And normally, Senator Lugar sits to my immediate left here, 
and I will have to tell you that your senator is not just one 
of the very best members of the U.S. Senate, he is one of the 
real true gentlemen of the U.S. Senate. So we welcome you here 
this morning.
    Dr. DeHaven, poultry growers in Georgia have raised some 
concerns regarding the USDA indemnification program for avian 
influenza. They are concerned that if the USDA does not provide 
100 percent indemnity for low pathogenic AI, early detection 
and eradication efforts might be compromised.
    There have also been documented cases in North America 
where low path strains have mutated into the high path strains, 
and the World Organization for Animal Health, the OIE, 
considers high path avian influenza, as well as low path H5 and 
H7 strains, reportable diseases.
    Does the USDA intend to propose 100 percent indemnification 
for H5 and H7 low path AI affected flocks to ensure that all 
potential cases are reported?
    Dr. DeHaven. Mr. Chairman, thank you for the question.
    Indeed, the current regulations that we have in place for 
low pathogenic H5 and H7 subtypes do provide for up to 50 
percent indemnity, that being 50 percent of the fair market 
value of the birds.
    And indeed, your comment about the potential for H5 and H7 
low pathogenic AI viruses to mutate to high path is accurate 
and, in fact, that is why we are developing a low path H5, H7 
response plan. Part of that process to put that program in 
place is to do a rulemaking that will give us the appropriate 
authorities, enhance the National Poultry Improvement Program 
to provide for a greatly enhanced level of surveillance testing 
that, by the way, would be useful not just for low path H5 and 
H7, but also for early detection of this highly pathogenic H5N1 
virus.
    The rule that we have drafted at this point is going to the 
final clearance process. Because of the rulemaking 
restrictions, I can't at this point in time, unfortunately, 
divulge the content of that rule. I will say that it does 
address the indemnity issue.
    We certainly recognize that indemnifying owners for any 
losses that they might incur in association with the disease 
eradication effort is critical. We think that some of the 
problems that have been encountered overseas in some of the 
developing countries that have this highly pathogenic H5N1 
virus are because of their inability to pay indemnity. So we 
recognize that as a critically important component of our 
overall program.
    Just one last thing to add, and that is historically, with 
the incursion of a highly pathogenic AI virus in the United 
States, we have typically depended upon the Commodity Credit 
Corporation or emergency funding for our operation and 
indemnity costs. And with a highly pathogenic virus, we have 
historically provided 100 percent indemnity of fair market 
value of the birds that were destroyed. I have no reason to 
suspect that that would be any different if we were to find 
this highly pathogenic virus in commercial poultry.
    The Chairman. I know this rulemaking process has been 
ongoing now for a couple of years, and I hope we are getting to 
the end of that so that we can start to get some certainty 
here.
    Dr. DeHaven. Mr. Chairman, it is our expectation to have 
that rule published this summer.
    The Chairman. It appears the USDA is taking the proper 
steps to ensure an efficient and functional response system. In 
any system as complex as this one, the true test of success is 
in the implementation. What steps are being taken to train and 
position the proper employees to carry out the implementation 
of this plan?
    Is USDA planning to conduct any training, tabletop 
exercises, or simulations to identify areas of the plan that 
may need to be strengthened, and who will be in charge of the 
oversight of this plan?
    Dr. DeHaven. Mr. Chairman, we have in place, as you know--
and have had for a number of years--an avian influenza response 
plan. The time that we have to prepare for this particular 
virus has allowed us to greatly enhance and bolster our overall 
response and detection efforts.
    To focus on your specific issues, in fact, there have been 
a number of tabletop exercises at various levels of Government 
from the very top levels, where there was a White House test 
exercise, tabletop exercise on the incursion of this highly 
pathogenic virus.
    Secretary Johanns had a senior department-level tabletop 
exercise, and indeed, part of the use of the supplemental funds 
that have been provided is to conduct 50 or more tabletop 
exercise at the State level. So, indeed, we plan to do a lot of 
exercising of those response plans. And as you point out, one 
of the best ways to find out if those response plans are 
complete and thorough is to test them.
    This would also include some efforts underway to develop 
some computer simulation models that if the virus were to find 
its way into the United States through various pathways, what 
would be the likely means of spread of the virus, and what 
would be the impact of various response mechanisms that we 
might put in place? So that, again, is part of our intended use 
of those response plans.
    We have within our Veterinary Services Unit within APHIS an 
emergency management program. And one individual, Dr. Larry 
Granger, who is the associate deputy administrator for 
emergency management, who has taken this on as a full-time job, 
preparing for highly pathogenic avian influenza.
    He is working closely with State and industry counterparts, 
as we are finding that virtually every State has some level of 
response plans. The industry has done a tremendous job in 
developing their response plans. And now we are working to make 
sure that those response plans are coordinated for everything 
from how we would humanely euthanize animals, how we would 
dispose of the carcasses, and ensuring that we have appropriate 
levels of personal protection for our employees.
    The Chairman. You mentioned that we are coordinating with 
the various State plans. Is there any review by USDA of the 
various State plans around the country to determine the 
adequacy of those plans?
    Dr. DeHaven. Part of our emergency management system within 
our veterinary services organization is to place area emergency 
coordinators in the States, working with the States as they 
develop their plans. This is to ensure that those State plans 
are not only complete, but also complementary and consistent 
with the national plans that we have in place.
    In the State of Georgia in particular, with an outstanding 
State veterinarian in the form of Lee Meyers, those plans are 
exceptionally well prepared and consistent and complement our 
Federal response plans. Other States, it depends on the State 
itself. Some are in better shape than others, quite frankly.
    But we are focusing, as you might imagine, with regard to 
highly pathogenic H5N1 on those States that have significant 
poultry populations. I think it is safe to say that those plans 
are in remarkably good shape at this point. Now the exercise is 
to make sure that State, Federal, and industry plans are 
coordinated.
    The Chairman. In March 2003, more than 1,800 of USDA's 
plant protection and quarantine inspectors were transferred to 
the Department of Homeland Security's Customs and Border 
Protection Division. There is concern that these transfers may 
reduce USDA's ability to respond to agricultural emergencies.
    What is being done to detect and eliminate illegal imports 
of live birds, including wildlife, fighting cocks, and poultry, 
and poultry products from H5N1-infected countries? And do we 
have any gaps in these specialists as a result of the transfer 
of these employees to DHS?
    Dr. DeHaven. Mr. Chairman, as you might guess, going back 
to March of 2003 with the transfer of that many employees to a 
new agency that was just standing up, there were some bumps 
along the way. And in fact, not everything was in place as we 
would like to see it. I am pleased to report that there has 
been remarkable improvements in that regard.
    Initially, there were a number of vacancies within the 
agricultural specialists within the Customs and Border 
Protection. They have hired hundreds of new employees. APHIS is 
continuing to train those employees, and those agricultural 
specialists within the Customs and Border Protection are 
actually going through the same 8-week training program that 
they underwent when those employees still worked for APHIS.
    We have in place now an auditing system, a joint USDA-CBP 
auditing system, where we are going to those ports and borders 
and auditing their systems to make sure that they are 
identifying the problems and that those problems are being 
corrected.
    We have sent several alerts to Customs and Border 
Protection with regard to looking out for poultry and poultry 
products and other birds that might be coming from high path AI 
H5N1 affected countries to ensure that they are stopping those 
products as they might be entering the border.
    And in fact, I think some numbers that reflect the adequacy 
of that system with regard to smuggling interdiction 
activities, both with our own teams in APHIS as working side by 
side with Customs and Border Protection--in our fiscal year 
2005, they had 129 seizures from highly pathogenic AI infected 
countries. So far in fiscal year 2006, there have been 63 
seizures of illegal product found at our ports and borders. So, 
in fact, we have, indeed, bolstered that effort.
    Of the supplemental funding, $9 million is going to enhance 
our smuggling interdiction activities, and so we are still in 
the process of adding additional employees toward that effort 
to further bolster those activities at our ports and borders.
    The Chairman. Senator Harkin?

STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA, RANKING 
   MEMBER, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    Senator Harkin. Thank you very much, Mr. Chairman. I 
apologize for being late.
    Dr. DeHaven, I read your statement before, and I appreciate 
your being here and your leadership in this area. I would just 
ask that my statement be made a part of the record, Mr. 
Chairman. I appreciate that.
    The Chairman. Without objection.
    [The prepared statement of Senator Harkin can be found on 
page 22 in the appendix.]
    Senator Harkin. But I am told, again, we all know that this 
H5N1 is not just a possibility, but that it is coming. Just a 
matter of time and hasn't gotten here, and it is just a 
question of when.
    My concern is, are we ready? Are you working across lines 
with CDC, with Health and Human Services, with State agencies 
to make sure we have a good plan in place?
    The other question I have is what do we do when we have an 
outbreak among a chicken flock someplace or some bird someplace 
in this country? It might be some other animal. But I suppose 
maybe probably chickens. What do we do? And what kind of 
quarantine do we have?
    And are you satisfied with the status right now of 
preparations for the first bird with H5NI and that is going to 
be headlines. It is going to be headlines across America. It is 
going to be on the evening television shows.
    And with this show I just saw the other night on ABC News a 
lot of it was not quite right. I understand that. But still, 
people are going to get concerned about it.
    That first bird that gets analyzed that has H5N1, and then 
the destruction of the flock is going to be big news across 
America. What do we do? What happens then? And are you 
convinced that we have the things in place right now to get on 
top of it in a hurry?
    Dr. DeHaven. Thank you, Senator Harkin, for your comments 
and question.
    The short answer would be, yes, I think that we are 
prepared. We have been responding to incursions of avian 
influenza in the United States successfully for a number of 
years. So while this particular virus is new, and it is unique, 
it is not new and unique for APHIS to respond to working 
closely with our State and industry colleagues, respond to and 
successfully contain and eradicate avian influenza viruses.
    Having said that, I would be the first to say, without 
question, this particular virus does represent some unique 
challenges. We are, in fact, working very closely with our 
colleagues in other Federal agencies and also working very 
closely with State departments of agriculture, State wildlife 
departments, as well as our industry colleagues, who, as you 
might guess, on the commercial side have done a tremendous job 
in preparing for a potential response.
    We are satisfied that we, in fact, will be able to respond 
quickly, effectively, to contain and eradicate the incursion if 
it happens. Having said that, I think if we ever get to the 
point where we are complacent and think that we have arrived, 
if we ever think that we can't improve upon the existing plans 
is a very, very dangerous position to be in.
    So while I think we are prepared, we are far better 
prepared today than we were 6 months ago or a year ago, we can 
always improve.
    In terms of what happens when we find the virus, we would 
estimate that the first inclination will probably be a very 
significant increase in mortality in a commercial flock. We 
will see far more birds dying than what would ordinarily die in 
a large commercial operation.
    We would immediately dispatch one of our foreign animal 
disease diagnosticians, collect samples, and within hours would 
have test results as to whether or not we, based on presumptive 
laboratory results, are dealing with an H5 type virus. If we 
have presumptive laboratory indication that we have an H5 
virus, plus we have clinical signs in that flock suggestive of 
a highly pathogenic virus, we would start depopulation 
immediately.
    So that depopulation effort involves placing a quarantine 
under the affected flock, establishing a control zone probably 
about 10 kilometers or 6.2 miles around that infected premises, 
where we control all movement of poultry, poultry products, 
poultry equipment, anything on or off those farms, and then, of 
course, begin the depopulation process.
    Once the birds are humanely destroyed, we would also clean 
and disinfect the premise. We would do surveillance testing in 
that 10-kilometer or 6.2-mile zone, and we would also start an 
epidemiological investigation. What has come onto that 
premises, what has left that premises, and----
    Senator Harkin. Trying to find out how it got there in the 
first place?
    Dr. DeHaven. Correct.
    Senator Harkin. Dr. DeHaven, the supplemental appropriation 
provided $91 million for USDA avian flu prevention and control 
activities. Eighteen million of that was allocated to 
international biosecurity and surveillance and diagnostic 
measures. I understand that less than $10 million has been set 
aside to assist States in their preparedness plans.
    Is the $18 million enough to continue and expand the 
efforts on the international efforts to eradicate H5N1 in Asia? 
That is what that $18 million was for. Let me ask you, do you 
have any idea--if you don't know right now, could you get it to 
me--what is the total dollar amount the U.S. has spent on 
international efforts to eradicate H5N1 in Asia?
    Dr. DeHaven. That $18 million was money, as you indicated, 
out of the supplemental appropriation that the Department of 
Agriculture identified for use in international efforts to 
assist affected countries. By itself, that $18 million does not 
go very far, given the fact that we now have some 50 affected 
countries, and we are dealing with this virus on 3 continents.
    When that request was generated, we were dealing with 7 or 
8 countries on 1 continent. So, indeed, that $18 million was 
not intended to respond to the scope of what we are looking at. 
No one anticipated the rapidity with which that virus has 
spread.
    But I would also point out that our $18 million is just one 
small contribution in a sea of contributions. You will recall 
that there was a donors conference in Beijing in January of 
this year, and the international community pledged $1.9 billion 
toward this overall effort, recognizing that perhaps one of 
the, if not the best, ways that we can protect public health is 
to attack this virus at its source in birds.
    So our $18 million, while seemingly a small amount, is part 
of a much larger contribution where, at the Beijing conference, 
a recognition that virtually half of the $1.9 billion that was 
pledged needs to go toward better attacking this virus at its 
source in animals.
    Senator Harkin. Mr. Chairman, I just have one last 
question. You said something about this 10-mile radius, I 
picked up. But I understand that under the department's plan, 
response plan that the entire State would be quarantined. Am I 
missing something here?
    Dr. DeHaven. Let me clarify. We would anticipate, under the 
typical scenario where we have a single-point source of 
infection, a single flock where we have the virus, where we 
have found the virus, that our typical response would be a 10-
kilometer or 6.2-mile control zone, where we would control 
movement and conduct intensive surveillance.
    If we are faced with a scenario where we think that there 
may be multiple outbreaks, and we haven't been able to 
determine exactly where that virus might or might not be, we, 
in fact, could quarantine an area as large as the entire State. 
We wouldn't take that action lightly, recognizing the impact 
that that might have on commercial industry.
    So we are modifying the draft National Response Plan that 
we have published on our Web site to clarify how and when we 
would use various quarantines. That 6.2-mile or 10-kilometer 
zone, by the way, is consistent with the OIE standard, the 
requirement that would be expected, recognizing that based on 
specific circumstances we may need to adjust that even to the 
extent of potentially quarantining an entire State. We wouldn't 
anticipate that being the case.
    Senator Harkin. Thank you, Dr. DeHaven.
    Mr. Chairman, again, I thank you for having this hearing. I 
hate to say this, but we may have to have more. A lot of people 
think of avian flu as only the human aspect of transmission. 
But the impact it could have on our livestock producers. We 
didn't even get into swine, and we now know that it is 
transmissible to swine. But what it could do to our poultry 
flocks.
    And then if it goes into swine, what it could do to swine 
in America would be just devastating economically to this 
country. We know about it. But I don't think a lot of the 
American people have really focused on this.
    And I hope through this hearing and through our Agriculture 
Committee efforts here, we can alert the American people that 
there is more to this than just the human aspect. We hope it 
never transmits into humans, but we know that it is 
transmissible in poultry and now in swine.
    And we just have to be on top of this thing. I say ``if''--
we obviously hope that it doesn't happen here. But everything I 
have been led to believe is that somehow it is going to get 
here--migratory fowl, imported birds, something like that. It 
is going to get here some way or another.
    So the American people really need to understand that we 
need to come up front with the money, and we need to have our 
plans in place when this happens.
    Thank you, Mr. Chairman.
    The Chairman. Senator Harkin, you are absolutely right. It 
may be just a matter of when, not if it is going to happen. But 
whether it is this strain or not, the next strain may be the 
one that ultimately arrives in the United States, or the next 
one after that. So preparedness is of utmost importance.
    Senator Dayton?
    Senator Dayton. Thank you, Mr. Chairman. And I thank you 
for holding this very important hearing.
    I have been attempting unsuccessfully to get the Committee 
on Homeland Security and Governmental Affairs on which I serve 
to hold a similar hearing on our preparedness, and I thank you 
very much for your initiative and leadership in doing so.
    I hear not as frequently from my constituents back home as 
I do about energy prices, but I hear very frequently people's 
concerns about this. So I know it is very much on their minds. 
And coming, as both of my colleagues do here, from an 
agricultural State, I think even more so people are aware of 
the presence of turkeys, chickens. And you know, Senator Harkin 
pointed out, it is not limited to that, but it is on 
everybody's mind as they see this and calculate their own 
exposure.
    I also, Dr. DeHaven, wanted to thank you publicly for your 
terrific response a couple of months ago when some Minnesota 
farmers up in the northwestern part of our State suffered the 
loss of their entire farms because of a bovine tuberculosis 
outbreak.
    And I want to just read for the record part of my letter to 
Secretary Johanns, which I said, ``I would like to acknowledge 
Animal and Plant Health Inspection Service administrator Ron 
DeHaven for releasing urgently needed funds for the owners of 
Minnesota's fifth infected herd last Friday, January 20th. Dr. 
DeHaven's quick work was a welcome lifeline to the three 
ranchers who had suffered more than $43,000 in loss due to 
bureaucratic delays, nearly driving their farm into 
bankruptcy.''
    So I thank you very much. It was really a remarkably quick 
response on your part and the Secretary's. And the farmers up 
there had seen some of their neighbors devastated by a flood in 
2002 and suffering through a lack of Federal responsiveness 
from FEMA, and they were just astonished that they got such a 
swift response.
    So I thank you on their behalf. And anytime you would like 
to take over the administration of FEMA, please let me know. I 
will be glad to submit your name for consideration.
    Dr. DeHaven. Senator, thank you for your kind comments. I 
am thoroughly enjoying my current position. Thank you very 
much. And will just add that, as you know, we have a lot of 
work to do yet in Minnesota with regard to TB.
    Senator Dayton. I wanted to read something that the 
Minnesota Department of Health has a fact sheet, March 2006, 
for Minnesotans concerns about this danger. I would just ask if 
this is accurate and if there is anything else that we need to 
do to assist in its further development?
    It says, ``Wildlife biologists, migratory bird specialists, 
veterinarians, and epidemiologists from the USDA, DOI, and 
Health and Human Services (HHS), along with the International 
Association of Fish and Wildlife Agencies, the National 
Association of Public Health Veterinarians, and the State of 
Alaska have developed an early detection system for Asian H5N1 
highly pathogenic avian influenza in wild migratory birds--U.S. 
interagency strategic plan.''
    Is that interagency strategic plan complete? Are the States 
informed? Is everything being done that needs to be done? Do 
you have resources, funding necessary to continue that? If not, 
what else do you need?
    Dr. DeHaven. Thank you, Senator Dayton, for the question.
    And in fact, we are just now embarking on the 
implementation portion of our wild bird surveillance program. 
It has been an excellent partnership with our colleagues in 
HHS, Department of Interior, the State agencies, the 
International Association of State Wildlife Agencies. Great 
partnership.
    And we are now beginning to see the fruits of that labor in 
terms of some of the actual sampling of those birds just now 
beginning.
    Let me clarify in that we are currently seeing the arrival 
of migratory birds, not only from North America along our 
Pacific flyway, but also birds from Asia that are now arriving 
at nesting and breeding grounds in the State of Alaska. So we 
will be testing those birds throughout the summer. And so far, 
in fact, we have collected some 250 samples from live birds, 
dead birds, water, environmental sample. Of course, they are 
all negative. And we will continue and expand that testing 
through the summer.
    The concern is that there might be birds that are carrying 
that virus from Asia that would mingle with our North American 
birds. And then late summer, early fall when those North 
American birds migrate south, they could bring the virus to the 
continental United States.
    So the second part of that implementation plan is late 
summer, early fall, testing those birds as they are migrating 
south. We have four major flyways--not just the Pacific flyway, 
but Central, Mississippi, and Eastern flyway. We will be doing 
surveillance testing in all four of those flyways, looking, as 
that press release or that statement from the Minnesota 
Department of Public Health indicated, that this provides an 
excellent early warning system.
    If we find that virus in migratory birds, it provides us 
the opportunity to respond in the appropriate geographical area 
relative to that finding and bolster surveillance and 
biosecurity efforts.
    Senator Dayton. Thank you. One more question, if I may, Mr. 
Chairman?
    The University of Minnesota is a national leader in the 
surveillance of avian flu. The Minnesota poultry testing 
laboratory in Willmar, Minnesota, tests every flock in the 
State, more than 70,000 samples each year. And yet they are 
starved for funding, and that is partly or largely a State 
government responsibility.
    But what do you consider to be the role of grassroots 
programs like the one in Minnesota in this united effort to 
prevent an outbreak of avian flu? And of the $7.1 billion 
requested by President Bush, how much of that will flow to the 
States through cooperative agreements with USDA? And you can 
give me that answer for the record later if you would prefer, 
sir.
    Dr. DeHaven. OK. Let me explain some of the interaction 
that we have with the States. Much of it, of course, goes to 
our overall response plans, where if we have an outbreak in a 
given State, the response will be a State-Federal joint effort, 
working close with the industry to respond to that overall 
effort.
    Many of the monies that have been made available are going 
to provide for the equipment, supplies, those kinds of things 
that would be necessary for a State-Federal task force. So, 
indirectly, much of those monies would be going to the States.
    We have greatly expanded our laboratory testing capacity as 
well. We recognize that if we have widespread outbreak of 
highly pathogenic AI, that we may need to run literally 
thousands and thousands of samples.
    We now have certified some 39 State diagnostic laboratories 
to do some of that testing for us, making sure that they have 
the equipment, and then we, of course, would provide the 
reagents for them to do that testing. So that we would have the 
capacity to run up to 18,000 samples per day, if that became 
necessary in a widespread outbreak situation.
    We are also partnering very closely with the University of 
Minnesota's Center for Food Safety and Animal Health. We are 
working for them in collaboration with our APHIS unit in Fort 
Collins to become an OIE collaborating center, doing not only 
outreach domestically, but doing outreach internationally, 
training experts in terms of assisting underdeveloped countries 
with their overall response programs.
    So our whole response effort, much of our education and 
outreach is totally dependent upon State partners, much of that 
at the university level. So I think that partnership is there. 
And H5N1, with all of the dark clouds, does provide some silver 
lining in terms of enhancing already-existing partnerships.
    Senator Dayton. I thank you for your efforts, and I would 
just say if you need any resources for anything related to this 
effort and for the State partnerships, please let us know.
    Thank you, Mr. Chairman.
    Dr. DeHaven. Thank you, Senator.
    The Chairman. Thank you.
    Dr. DeHaven, in December 2005, Congress approved an 
emergency supplemental funding bill for pandemic influenza 
preparedness and included $91.35 million in funding for USDA-
specific efforts. Again, you have talked a little bit about 
this. But just for the record, how much of that funding has 
actually been obligated and to what specific programs or 
program areas?
    Dr. DeHaven. Chairman Chambliss, we have, as of today, 
obligated a relatively small portion of that money. Obligations 
as of May 10th were $5.1 million out of the $91 million.
    Having said that, we are on the verge of letting a number 
of contracts, signing a number of cooperative agreements. And 
so, we would anticipate that by September of this year, we will 
have obligated over $66 million of that $91 million, which 
would provide for a carryover of approximately $14 million.
    In terms of what the monies have been spent for, a number 
of areas to enhance cooperative agreements for domestic 
surveillance and diagnostic activities. This would be some of 
the cooperative agreements with the States to improve their 
response plans, as well as some of the efforts at those State 
laboratories to provide additional diagnostic capability.
    We have expended some of those monies in enhancing our 
anti-smuggling and regulatory enforcement efforts, to bolster 
our activities at the ports and borders. But also going to some 
of the retail outlets where some of these prohibited products 
might be found and then tracing them back to their point of 
origin.
    There has been $1.7 million expended to enhance the 
national veterinary stockpile. These would be monies for 
vaccine, supplies such as Tyvek suits, respirator masks, 
gloves, all of the equipment and supplies that we might need to 
respond, with the concept of preparing ``push packs.''
    These would be packs of materials that would be ready to 
go, everything that 10 people would need for 10 days that are 
palletized and be ready to go onsite in an outbreak situation.
    We are working to provide for in-country experts and 
experts at the Food and Agriculture Organization and the 
Organization of International Epizootics, or the OIE, as they 
are working internationally to provide assistance. In fact, I 
just returned from the Food and Agriculture Organization 
headquarters in Rome, where I have been working internationally 
to help them stand up a crisis management center.
    If we were to have an outbreak in the United States at the 
national level, we would have an overall coordinating 
organization in our national emergency operation center. The 
concept for the FAO is the same, except on a global scale.
    This is a situation where they have not had to respond in 
this order of magnitude in the past, and they haven't had 
before the mechanism to coordinate the efforts ongoing in many 
countries simultaneously. So helping them stand up this 
emergency operation center will go a long way toward helping 
them globally to better respond to that effort. So we pledged a 
considerable sum toward that overall effort.
    So, again, the short answer is we have only obligated as of 
today $5.1 million. We would expect by September for that 
number to increase to over $66 million.
    The Chairman. Let me ask that, say, in 30-day intervals. I 
don't expect you to do it every time you execute a contract. 
But in 30-day intervals between now and the end of the fiscal 
year, if you would provide the committee with contracts you 
have entered into and funding that is obligated and for what 
purpose? It would be very good information for us to have.
    Dr. DeHaven. We would be glad to do so, Mr. Chairman, and, 
in fact, can give you that initial report very quickly.
    The Chairman. Very good.
    On Tuesday night, ABC aired this movie entitled ``Fatal 
Contact: Bird Flu In America.'' The movie was full of 
frightening images to secure ratings. But unfortunately, it did 
little to educate the public on the realistic threats 
associated with a pandemic.
    I would have been pleased if the movie had simply raised 
the awareness of the American public and encouraged them to 
play an active role in the fight against avian flu. But 
unfortunately, the movie provided a worst-case scenario that 
likely confused and scared many Americans.
    In your testimony, you stated that proper precautions in 
the preparation and the cooking of poultry will protect 
consumers from avian influenza. This is an important point to 
address, and I would ask you to comment again on that and 
emphasize with some certainty exactly what people need to think 
of in terms of cooking poultry and how safe it is.
    Dr. DeHaven. Thank you, Mr. Chairman.
    Let me start at the beginning. First of all, we think we 
have in place an excellent surveillance and detection system. 
So that if the virus does arrive in the United States, we think 
that we would find it very quickly, particularly in commercial 
poultry, which is the concern, obviously, from a food safety 
standpoint.
    We would very quickly, within those affected flocks, work 
to contain and eradicate it, to ensure that birds that might be 
in those infected flocks never make it into the food chain.
    To the extent that there would be an early infection that 
went undetected on the farm, I would point out that we have 
Food Safety Inspection Service there doing inspection at 
slaughter, and they are trained to recognize any of the signs, 
symptoms, post mortem lesions that would be characteristic of a 
disease like highly pathogenic avian influenza. So the second 
level of protection is the onsite inspection at those slaughter 
plants.
    If by some rare occurrence product were to make its way 
into the food chain, and I think this focuses on the nature of 
your question, that is where just good sanitation practices and 
cooking will take over and provide all of the protection. And 
indeed, the consumer has the ability to provide all the 
protection that is necessary with regard to poultry or poultry 
products.
    And providing those protections for avian influenza also 
provides the protection for a number of potential food-borne 
pathogens. So these should be practices that are already in 
place in every kitchen in the country. But it is things like 
making sure that you don't cross-contaminate cooked poultry 
with raw product. If you are using a knife or other utensil on 
raw product, make sure that you wash it before it is used on a 
cooked product.
    Any surfaces utensil that would come in contact with raw 
poultry should be properly cleaned and sanitized before it 
would have the opportunity to come in contact with a cooked 
product.
    And then the last thing is normal cooking temperatures. If 
poultry is raised to the internal temperature of 165 degrees, 
it not only will kill any avian influenza virus, it will render 
harmless a number of other potential food-borne pathogens.
    So, in summary, I think simply by practicing good 
sanitation, hygiene practices in the kitchen, proper cooking 
temperatures, there is no risk to the consumers from poultry or 
poultry products.
    The Chairman. Very good.
    Again, with reference to the movie, it showed a Virginia 
salesman that caught a virus in Hong Kong, returned home, and 
it showed him spreading the virus through napkins, by an olive 
in his martini, by simply touching a woman on the shoulder, by 
handshakes, or through just about any other way imaginable. Any 
of that realistic?
    Dr. DeHaven. Well, we are delving into the human health 
aspect of this virus. And so, let me tread cautiously, 
recognizing that my area of expertise is limited to animals.
    But I would simply point out that there is a seasonal flu 
every year in this country, and I think our public forgets the 
fact that that seasonal flu virus that we have every year 
typically kills in the neighborhood of 36,000 people in this 
country. So let us not lose sight of the fact that that occurs 
on a regular basis.
    What is common to that seasonal flu virus that is not 
common to this bird virus that we are currently seeing in other 
parts of the world is the ability to transmit easily from 
person to person. And the concern, of course, is that through 
mutation that the H5N1 highly pathogenic virus would mutate and 
be one that is spread easily from person to person.
    We can only surmise that that spread would be or the 
ability of the virus to spread would be comparable to the 
seasonal flu virus that we experience every fall, winter, and 
early spring in this country.
    And so, yes, indeed, the virus potentially could be one 
that would be easily spread from person to person. It would be 
my estimation that the movie on TV depicted the absolute worst 
and perhaps exaggerated scenario of that.
    The Chairman. Gentlemen, any other questions?
    Senator Harkin. The only other thing I would have, Mr. 
Chairman, is when you talk about depopulating flocks and stuff, 
obviously, you have got to train some people to do that out 
there. You don't have the personnel to do that if you are going 
to depopulate flocks, I assume. And so, you are going to have 
to train people.
    Are you doing that now--training personnel on how to 
depopulate a flock?
    Dr. DeHaven. Correct. Well, Senator Harkin, again, dealing 
with avian influenza is not something that is new to us.
    Senator Harkin. So you know how to do depopulation anyway?
    Dr. DeHaven. We do know how to do that and, in fact, 
destroyed several million birds in southern California and 
other Southwestern States as part of our Exotic Newcastle 
Disease outbreak. So whether it is for Exotic Newcastle 
Disease, low pathogenic avian influenza, or this highly 
pathogenic virus, we do, in fact, have considerable expertise 
in depopulating flocks and taking care of carcasses.
    Having said that, I think the level of awareness, the level 
of preparation within the industry is higher than it ever has 
been. So I think we will have willing and experienced partners 
in the form of industry as well. The industry that already has 
catch crews that are involved in catching birds to take them to 
slaughter, et cetera, and those simple skills come in handy in 
this situation as well.
    But they are also being trained in terms of employing 
appropriate personal protective measures. And therein, I think, 
lies the area. We are, indeed, providing additional training to 
our people, State employees, and will be coordinating very 
closely with the industry in terms of training that is 
provided.
    Senator Harkin. Thank you very much, Mr. Chairman.
    The Chairman. I did have one other question. Throughout 
your travels around the world, you have witnessed firsthand the 
veterinary infrastructure and biosecurity capabilities of many 
countries affected by avian influenza. A key component of the 
National Response Plan is preventing the spreading of avian 
influenza and controlling the virus in foreign countries where 
it currently exists.
    Could you talk for a minute about what we are doing 
relative to having a presence in countries where we know this 
virus already exists and what we are doing with regard to in-
country work there, both from a personnel standpoint and 
otherwise to make sure it doesn't come here?
    Dr. DeHaven. Let me address that in two ways. APHIS has 
responded in a number of countries where specific requests were 
made for particular areas, particular expertise, whether it be 
poultry virology, diagnostic capability, emergency response. 
And so, we have provided a number of people for weeks to months 
in country in countries that had requested and needed that kind 
of assistance.
    We have also put on a number of training courses, both in 
terms of emergency response training, on laboratory diagnostic 
capability, and those kinds of things. So we have provided that 
as requested response on a country-by-country basis.
    But we are also attacking it more globally by forming a 
coalition of like-minded developed countries, working initially 
with the World Organization for Animal Health, the OIE, to 
develop an assessment tool and then training teams of experts 
that can go into affected countries for the mid-and long-range 
effort of assessing what is their strategy for attacking the 
virus, assessing whether that strategy is appropriate given the 
level of virus, the sophistication or lack of sophistication of 
their industry, and their overall wherewithal to respond--is 
that an appropriate strategy?
    And if so, what is it that they need to better address the 
needs and attack the virus in accordance with that strategy. So 
we are now at the point of working with the OIE to start those 
training courses. Teams of experts would be trained to use this 
assessment tool and go in country, do the assessment, and find 
out what their needs are.
    Once the needs have been identified, working with funding 
countries and the World Bank, ensuring through the FAO that 
those needs are satisfied. This then goes to the FAO, that 
would take the lead in terms of implementation and making sure 
those needs were met. This goes to the crisis management center 
at the global level that I mentioned, having the regional OIE 
and FAO structure to oversee the activities in a region of the 
world, and then actually working in country to provide the 
expertise, the equipment, the resources that they need.
    So we think that the appropriate strategy to attack the 
virus is through international organizations working with like-
minded developed countries that have the resources and the 
experts to provide the assistance and providing the FAO and the 
OIE what they need to better attack the virus.
    [The prepared statement of Mr. DeHaven can be found on page 
24 in the appendix.]
    The Chairman. Dr. DeHaven, thank you very much for 
appearing today. Thanks for the good work you are doing down 
there. We look forward to staying in touch.
    And hopefully, we will, at some point in time, be 
celebrating the fact that the United States escaped the 
introduction of this virus into the United States.
    So thank you very much, and this hearing is now concluded.
    Dr. DeHaven. Thank you, Mr. Chairman.
    [Whereupon, at 11:35 a.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                              May 11, 2006



      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                              May 11, 2006




=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
